<html>
<title> - MCNUTT AND MAJUMDAR NOMINATIONS</title>
<body><pre>[Senate Hearing 111-160]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-160

                    MCNUTT AND MAJUMDAR NOMINATIONS

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   TO

  CONSIDER THE NOMINATIONS OF MARCIA K. MCNUTT, TO BE DIRECTOR OF THE 
 UNITED STATES GEOLOGICAL SURVEY, AND ARUN MAJUMDAR, TO BE DIRECTOR OF 
   THE ADVANCED RESEARCH PROJECTS AGENCY-ENERGY, DEPARTMENT OF ENERGY

                               __________

                            OCTOBER 8, 2009


                       Printed for the use of the
               Committee on Energy and Natural Resources





                  U.S. GOVERNMENT PRINTING OFFICE
53-621 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001










               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

BYRON L. DORGAN, North Dakota        LISA MURKOWSKI, Alaska
RON WYDEN, Oregon                    RICHARD BURR, North Carolina
TIM JOHNSON, South Dakota            JOHN BARRASSO, Wyoming
MARY L. LANDRIEU, Louisiana          SAM BROWNBACK, Kansas
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
ROBERT MENENDEZ, New Jersey          JOHN McCAIN, Arizona
BLANCHE L. LINCOLN, Arkansas         ROBERT F. BENNETT, Utah
BERNARD SANDERS, Vermont             JIM BUNNING, Kentucky
EVAN BAYH, Indiana                   JEFF SESSIONS, Alabama
DEBBIE STABENOW, Michigan            BOB CORKER, Tennessee
MARK UDALL, Colorado
JEANNE SHAHEEN, New Hampshire

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel











                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Murkowski, Hon. Lisa, U.S. Senator From Alaska...................     4
Farr, Hon. Sam, U.S. Representative From California..............     5
McNutt, Marcia K., Ph.D., to be Director of the United States 
  Geological Society, Department of the Interior.................     8
Majumdar, Arun, Ph.D., to be Director of the Advanced Research 
  Projects Agency-Energy, Department of Energy...................    11

                                APPENDIX

Responses to additional questions................................    23

 
                    MCNUTT AND MAJUMDAR NOMINATIONS

                              ----------                              


                       THURSDAY, OCTOBER 8, 2009

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:22 a.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Jeff 
Bingaman, chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Let us go ahead with our hearing on Dr. 
McNutt and Dr. Majumdar. Let me make a short statement about 
the two of them and proceed with that.
    Dr. Marcia McNutt, has been nominated to be the Director of 
the Geological Survey. This is one of the Federal Government's 
oldest scientific bodies, the principal source of scientific 
information about our Nation's land, minerals, and water 
resources, the second oldest office that is under this 
committee's jurisdiction.
    Dr. Arun Majumdar has been nominated to be the Director of 
the Advanced Research Projects Agency at the Department of 
Energy, ARPA-E as it is known. It was established by the Energy 
Policy Act of 2005 to overcome technological barriers to the 
development of advanced energy technologies, but the director's 
post was left unfilled by the previous administration. If 
confirmed, Mr. Majumdar will be its first director.
    Both Dr. McNutt and Dr. Majumdar are extremely well 
qualified for the positions to which the President has 
nominated them. Dr. McNutt is currently the President and Chief 
Executive Officer of the Monterey Bay Aquarium Research 
Institute and Professor of Marine Geophysics at both Stanford 
University and the University of California at Santa Cruz. 
Since earning her doctorate in earth sciences at the Scripps 
Institution of Oceanography, Dr. McNutt has also taught 
geophysics at MIT, authored 90 scientific papers, has been 
repeatedly recognized for her scientific achievements. If 
confirmed, she will be the first woman to head the USGS in its 
130-year history.
    Dr. Majumdar is currently the Associate Laboratory Director 
for Energy and Environment at the Lawrence Berkeley National 
Laboratory and a professor of mechanical engineering and 
material science and engineering at the University of 
California at Berkeley.
    Like Dr. McNutt, Dr. Majumdar is a highly distinguished 
research scientist. In addition, he has been an entrepreneur, 
has advised startup companies and venture capital firms in 
Silicon Valley. He is also an authority on energy efficiency, 
renewable energy, and energy storage.
    I strongly support both nominees. I am pleased to welcome 
them to our committee this morning.
    Let me recognize Senator Murkowski for any statement she 
would like to make.
    [The prepared statement of Senator Brownback follows:]
   Prepared Statement of Hon. Sam Brownback, U.S. Senator From Kansas
    Thank you Mr. Chairman and Ranking Member Murkowski and 
congratulations to both nominees for your selection to serve within the 
Obama Administration
    I'm extremely impressed with the experience both of you have in 
your respected areas of science, and I hope you maintain your 
commitment to the advancement of science from an objective viewpoint.
    I support the goals you both have laid out in your written 
testimony. I don't think anyone would argue with the importance of 
studying the submarine areas off the coast of the United States to 
better understand their resource potential, or providing scientific and 
engineering innovations to advance energy efficiency and security.
    But I ask that when you pursue these objectives, you do so from an 
unbiased objective approach that takes into account all scientific 
studies absent political ideologies, and hopefully therefore, moving 
our nation towards the goal of greater energy independence.
    I believe, through balanced policy, we can achieve this goal. What 
I don't believe, is that we can achieve this goal by promulgating 
national carbon emission regulation, regulation which I believe will 
only further cripple our national economy without any positive impact 
on global temperature reduction.
    Before I close, I wanted to address one issue I have with the 
Advanced Research Projects Agency-Energy at the DOE. Specifically, I 
was troubled that the Funding Opportunity Announcement for this program 
limits participation eligibility to U.S. operations of companies' 
headquartered abroad. Nationwide, these companies employ over 5 million 
Americans including 46,500 Kansans. There are no other programs at DOE 
that define these US companies as ``foreign entities'' and there is 
nothing in either applicable law or regulation that would require these 
restrictions. Many of these companies are longtime partners with the 
DOE and have expertise in this area that can help advance U.S. energy 
goals. As such, allowing their participation in ARPA-E, very much like 
DOE successfully does in other programs, could positively impact future 
U.S. employment while contributing to the success of the program. I 
know that officials at the Department have had discussions with folks 
on this issue and I appreciate the Secretary's acknowledgement of those 
concerns and a commitment to consider the issue and look to modify 
future requirements. I would ask that the exchange of letters regarding 
this issue, and my full statement, be entered into the record. In 
addition, I would like your assurance, Mr. Majumar, that the policy 
will be carefully reviewed, and hopefully changed, in light of these 
considerations.
    Thank you again for testifying today, and I look forward to working 
with both of you in the future.
                                 ______
                                 
        Attachments.--Exchange of Letters From Senator Brownback
                 Organization for International Investment,
                                                      May 26, 2009.
Hon. Steven Chu,
Secretary of Energy, 1000 Independence Ave., S.W., Washington, DC.
    Dear Secretary Chu: On behalf of the Organization for International 
Investment (OFII) and the more than 5 million American workers employed 
here by U.S. subsidiaries of foreign-based multinationals, I write to 
express concern about participation restrictions placed on these 
companies in a recent ARPA-E Funding Opportunity Announcement (FOA).\1\ 
This discriminatory treatment of certain U.S. companies is not mandated 
by applicable law or regulation. Restricting the ability of these 
companies and their American workers to fully participate in the 
program and compete for program funds undermines the effectiveness of 
the program, calls into question the U.S. commitment to a 
nondiscriminatory environment for foreign investment, and invites 
similar protectionist retribution from other countries. We urge you to 
reconsider these restrictions and issue an amendment to the FOA that 
removes these restrictions and allows all U.S.-domiciled companies, 
regardless of ultimate ownership, to compete on a level playing field 
for available ARPAE funds. Representatives of our member companies 
would be pleased to meet with you and your staff to provide further 
information on how their participation has benefited similar programs.
---------------------------------------------------------------------------
    \1\ APRA-E Funding Opportunity Announcement # DE-FOA-0000065.
---------------------------------------------------------------------------
    By way of further background, OFII is a business association 
representing the U.S. operations of many of the world's largest 
international companies. These operations directly employ more than 5 
million Americans here in the United States and support an annual U.S. 
payroll of over $364 billion. As evidenced by the attached membership 
list, many OFII members are household name companies with historic and 
substantial U.S. operations. Many are significant partners of your 
Department, and will be adversely affected by these new provisions.
    The restrictions included in the ARPA-E FOA would limit the ability 
of numerous U.S.-incorporated companies to participate fully in this 
important program. Two restrictions are particularly troublesome. 
First, the FOA prohibits a foreign entity\2\ from serving as the lead 
of a team competing for ARPA-E funds. Second, the FOA requires that 
``no more than 25% of the ARPA-E funds may be expended by the 
combination of all foreign entities on the project . . . regardless of 
whether the work is performed in the United States or a foreign 
location.'' These restrictions are both surprising and onerous because, 
to the extent it is important that ARPA-E funded activities take place 
within the United States, the existing FOA requirement that 90% of the 
work be performed on U.S. soil would accomplish that goal.
---------------------------------------------------------------------------
    \2\ The FOA definition of a ``foreign entity'' is overly broad and 
includes any entity that is ``directly or indirectly owned or 
controlled by a foreign company or government.''
---------------------------------------------------------------------------
    As currently drafted, the restrictions on the participation of 
``foreign entities'' will severely limit the ability of such 
significant DOE partners as Saint-Gobain, BASF, Philips Electronics, 
and Bosch from participating in the program. These companies employ 
thousands of American workers who work in research, production and 
office facilities throughout the Untied States. As such, the 
restrictions discriminate in favor of some U.S. companies and workers 
while disadvantaging other U.S. companies and workers. OFII Member 
Companies can make important contributions to the ARPA-E program and 
their participation would be of significant benefit to the Department 
and to the United States. Respectfully, restrictions that limit in any 
material way their ability to participate undermine the effectiveness 
of the program, make no economic sense, and will deprive U.S. taxpayers 
of the full value of their investment.
    We would further note that these restrictions are not legally 
required. We understand that the restrictions were adopted by 
Departmental program officials believing they were ``in the spirit'' of 
the Buy America provisions in the American Recovery and Reinvestment 
Act. We are very concerned that the program officials did not 
appreciate the significantly adverse and public impact of these 
restrictions on U.S. companies, on the effectiveness of the ARPA-E 
program, and on U.S. trade policy more generally.
    Setting aside any questions the restrictions raise under U.S. 
international agreements, they are also inconsistent with the 
longstanding and explicit U.S. policy to encourage foreign investment 
in the United States and accord nondiscriminatory treatment. The FOA 
invites discrimination against U.S. companies abroad, which is exactly 
what President Obama and the other G20 Leaders pledged to avoid through 
their commitment to ``promote global trade and investment and reject 
protectionism.''
    Finally, the restrictions currently set forth in the FOA are a 
disturbing example of what can happen when government crafts overtly 
protectionist policies. The atmosphere created by the ``Buy America'' 
provisions has encouraged officials to discriminate believing such 
discrimination is consistent with what appears to be prevailing policy. 
This is the very concern that we, along with dozens of companies and 
other trade associations, raised in our February 4th letter to the 
President opposing the Buy America provisions. In that letter, we 
warned that such a provision would ``send the wrong message at the 
worst possible time.'' Our fear was that the ``wrong'' message would be 
received by other countries. It is now clear that the wrong message was 
heard by U.S. officials as well.
    We strongly urge you to remove these unprecedented and unwarranted 
restrictions from the ARPA-E funding opportunity announcement, and to 
ensure that no similar restrictions are included in future FOAs for the 
ARPA-E program or other DOE programs.
            Sincerely,
                                            Nancy Mclernon,
                                                   President & CEO.
                                 ______
                                 
                                      Department of Energy,
                                     Washington, DC, July 29, 2009.
Ms. Nancy Mclernon,
President and CEO, Organization for International Investment, 1225 
        Nineteenth Street, NW, Suite 501, Washington, DC.
    Dear Ms. Mclernon: Thank you for your May 26, 2009, letter 
concerning foreign participation and funding under the first Funding 
Opportunity Announcement (FOA) issued by the Advanced Research Projects 
Agency-Energy (ARPA-E).
    You correctly note that the FOA permits participation by foreign 
entities and allows substantial funding of activities by foreign 
entities. However, you question the requirement that lead organizations 
be U.S. entities as well as the limitation on the percentage of ARPA-E 
funds that may be received by foreign entities participating in a 
selected project.
    The first ARPA-E FOA provisions sought to strike a thoughtful 
balance on the issue of foreign participation, permitting a substantial 
role for foreign entities with the resources and capabilities to 
participate in the important transformational goals of ARPA-E, while 
meeting the stipulations of the American Recovery and Reinvestment Act. 
The second ARPA-E FOA will be modified based on other factors, and we 
will coordinate this with the Department of Commerce and the Office of 
the United States Trade Representative (USTR).
    I believe that transformational results in energy research can be 
achieved when technology leaders and researchers from all over the 
world commit themselves to innovation. By supporting a global interest 
in collaborative energy research and innovations in energy technologies 
I hope to address better the energy, economic, and climate needs shared 
by all countries.
    Again, thank you for your interest in this important program. If 
you have any questions or require additional information, please 
contact me or Shane Kosinski, Advanced Research Projects Agency-Energy, 
at (202) 287-1057.
            Sincerely,
                                                Steven Chu,
                                                         Secretary.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the hearing this morning and I want to thank our nominees for 
their willingness to serve.
    You have noted the distinguished history within the USGS. 
Ms. McNutt will have 130 years of USGS history to deal with, 
while Mr. Majumdar has the luxury and also the challenge of 
being nominated to head an agency with almost no history to 
defend. So I do not know which is better here.
    Certainly on its face, the mission of the USGS is quite 
straightforward, to provide reliable scientific information 
about our Nation's resources. Good and complete information 
about the extent and the location of our Nation's natural 
resources is clearly essential and I believe the foundation of 
wise decisions regarding energy and land use policy. USGS also 
serves as a place where we help to educate Americans as to what 
our resources are and what they are not.
    I look forward to your responses to questions, Ms. McNutt. 
I do hope that you commit to providing the information that 
will allow us to do just that: understand where our resources 
are and where they may not be.
    I would also like to recognize the importance of another 
part of the USGS mission. Alaska, as you know, is part of this 
Pacific Rim of Fire, which is very geologically active. It is 
exposed on nearly a daily basis to threats from volcanoes and 
earthquakes and tsunamis. We have one volcano down on the chain 
that is picking up in activity. We had our major airport in the 
State, as well as other airports, shut down in March and April. 
It kept my kids from returning home from spring break, while 
they were skiing out there. It really ruined their day, I am 
sure.
    But I think we recognize that this geologic activity is not 
something that is remote and just happens where there is no 
impact to commerce and to human activity. It is incredibly 
important that within USGS they help to work with us to predict 
and minimize the risk to people in the State of Alaska. I look 
forward to discussing these issues with you and so many others.
    As far as the responsibilities within the Advanced Research 
Projects Agency, I think Senator Bond made the comment that 
food does not come from the back of a grocery store, and as 
such, we know that water does not originate from the faucet and 
copper wire does not originate from some endless spool in the 
hardware store. Gasoline does not originate from the filling 
station. But I think there are some who believe that there is 
this immaculate conception for energy. It just happens, that 
there is some magical technology that is going to appear 
overnight and just transform our Nation's energy use.
    That in one sense, Mr. Majumdar, is your job. I hope that 
you are successful in this, but hope is not much to build a 
prosperous economy on. While we wait for that today, we have to 
focus clearly on how we best assess, how we manage and how we 
produce the resources that will stabilize and advance our 
economy today and for some time into the future. I will look 
forward to your comments as well.
    With that, Mr. Chairman, I am ready to go.
    The Chairman. All right.
    Let me ask the two nominees to please come forward to the 
witness table. Representative Farr, please have a chair. Let us 
hear first from Representative Farr, who is here to introduce 
Dr. McNutt and who represents an area in California that she 
hails from, as I understand it. We are very glad to have you 
before the committee. Go ahead, please.

        STATEMENT OF HON. SAM FARR, U.S. REPRESENTATIVE 
                        FROM CALIFORNIA

    Mr. Farr. Thank you very much, Mr. Chairman. I am, indeed, 
honored to be before your committee and Ranking Member 
Murkowski and my friend, Senator Udall, and Senator Risch. I 
really appreciate the opportunity. I am really honored to be 
able to introduce to you Dr. McNutt, a scientist of 
exceptionally high caliber, and commend her to you as President 
Obama's nominee to head the USGS.
    Of course, it is bittersweet for me because Dr. McNutt is 
leaving my district where she has had an important and a 
lasting impact as a scientist, as a leader, as a member of our 
community.
    Dr. McNutt first arrived in Monterey more than a decade ago 
from the Massachusetts Institute of Technology to take charge 
of the Monterey Bay Aquarium Research Institute, better known 
locally as MBARI. This was an institute founded by the late 
David Packard.
    Her arrival coincided with the Year of the Ocean, and Dr. 
McNutt immediately joined in and became a leader in the 
planning of this high-profile event, in which I was heavily 
involved. That was the event in which President Clinton and the 
First Lady visited and had a White House conference on the 
oceans in Monterey.
    Out of this grew a multi-institutional cooperative alliance 
that she chaired for many years called the Monterey Bay 
Crescent Ocean Research Consortium. The consortium continues to 
this day and is outstanding for its breadth and density of its 
oceanographic and scientific prowess, unrivaled anywhere in the 
world.
    Taken together, these activities are illustrative not just 
of Dr. McNutt's initiative and leadership, but also of her 
pioneering vision.
    I point this out because it is such a clear example of Dr. 
McNutt's farsighted thinking and of how her collaborative style 
and commitment to working with other institutions have built 
such enduring programs and productive relationships.
    I would like to also mention that Dr. McNutt is one of the 
few women to have achieved membership in all three honorary 
academies: the National Academy of Sciences, the American 
Academy of Arts and Sciences, and the American Philosophical 
Society.
    Thank you for allowing me the tremendous honor to introduce 
you to Dr. McNutt, and with her today is her daughter Meredith 
and daughter Dana.
    [The prepared statement of Mr. Farr follows:]
     Prepared Statement of Hon. Sam Farr, U.S. Representative From 
                               California
    Thank you Chairman Bingaman and members of the Committee for 
granting me the opportunity to speak to you here today: it is a great 
privilege. It is also a great privilege and a sincere pleasure to 
introduce Dr. Marcia McNutt, a scientist of exceptionally high caliber, 
and to commend her to you as President Obama's nominee to head the 
United States Geological Survey. Of course this is a bittersweet moment 
for me because it means that Dr. McNutt will be leaving my district, 
where she has had an important and a lasting impact as a scientist, as 
a leader and as a member of our community.
    Dr. McNutt first arrived in Monterey more than a decade ago from 
the prestigious Massachusetts Institute of Technology to take charge of 
the Monterey Bay Aquarium Research Institute, better known as MBARI. Of 
course all of the ocean leaders in the Central Coast were keenly 
interested in what direction she might take this, then young, 
institution; it had so much promise but had, to date, been somewhat 
insular from the other oceanographic institutions in the area. Her 
arrival coincided with the Year of the Ocean. Dr. McNutt immediate 
joined in and became a leader in the planning for this high-profile 
event, in which I was also heavily involved.
    Out of this grew an inter-institutional cooperative alliance that 
she chaired for many years, called the Monterey Bay Crescent Ocean 
Research Consortium, or MBCORC. The existence of MBCORC provided the 
nucleus for one of the first successful regional ocean observing 
systems, CeNCOOS, which is hosted at MBARI. Taken together, these 
activities are illustrative not just of Dr. McNutt's initiative and 
leadership, but also of her pioneering vision. The Monterey Bay 
Crescent Ocean Research Consortium continues to this day and is 
astounding for the breadth and density of its oceanographic and 
scientific prowess, unrivaled anywhere else in the world.
    I point this out because it is such a clear example of Dr. McNutt's 
far sighted thinking and of how her collaborative style and commitment 
to working with other institutions have built such enduring programs 
and productive relationships. I would also like to mention that Dr. 
McNutt is one of the very few women to have earned what is the academic 
equivalent of the ``triple crown:'' membership in all three honorary 
academies: The National Academy of Sciences, the American Academy of 
Arts and Sciences, and the American Philosophical Society.
    Thank you again for allowing me the tremendous honor to introduce 
to you, Dr. Marcia McNutt.

    The Chairman. Thank you for being here to make the 
introduction. We appreciate it very much. We appreciate you 
taking time out of your busy schedule.
    Let me just go through the protocol that we do with all 
nominees.
    We would excuse you, Representative Farr. If you need to 
get back to the House, we certainly understand that.
    The rules of our committee that apply to all nominees 
require they be sworn in connection with their testimony. So 
let me just ask the two nominees if they would please stand and 
raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth, and nothing but the truth?
    Ms. McNutt. I do.
    Mr. Majumdar. I do.
    The Chairman. You may be seated.
    Before you begin your statements, let me ask three 
questions that we address to each nominee that comes before 
this committee.
    First, will you be available to appear before this 
committee and other congressional committees to represent 
departmental positions and to respond to issues of concern to 
the Congress?
    Dr. McNutt?
    Ms. McNutt. I will.
    The Chairman. Dr. Majumdar?
    Mr. Majumdar. I will.
    The Chairman. The second question. Are you aware of any 
personal holdings, investments, or interests that could 
constitute a conflict of interest or create the appearance of 
such a conflict should you be confirmed and assume the office 
to which you have been nominated by the President?
    Dr. McNutt?
    Ms. McNutt. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate action to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Dr. Majumdar?
    Mr. Majumdar. My investments, personal holdings, and other 
interests have been reviewed both by myself and the appropriate 
ethics counselors within the Federal Government. I have taken 
appropriate actions to avoid any conflicts of interest. There 
are no conflicts of interest or appearances thereof to my 
knowledge.
    The Chairman. Thank you both.
    Our third and final question is, are you involved or do you 
have any assets that are held in a blind trust?
    Dr. McNutt?
    Ms. McNutt. No.
    Mr. Majumdar. No.
    The Chairman. OK, thank you both very much.
    At this point, if either of you have a desire to introduce 
family members, we welcome that. Dr. McNutt, I know your 
daughters are here. If you would like to introduce them or 
anyone else, go ahead.
    Ms. McNutt. Yes, Senator. I would like to introduce two of 
my daughters who took the red-eye to be with us this morning. 
First is my daughter Meredith who is a graduate student at 
Berkeley. She is studying green real estate development at the 
Haas School of Business. Next to her is my daughter Dana who 
works in Silicon Valley for a company in IT security, and she 
is also obtaining a graduate degree at the Engineering School 
at Santa Clara University.
    Dana's identical twin sister Ashley graduated from Stanford 
in philosophy and political science, but she is Miss Rodeo 
California, and her royal duties have kept her in California 
this week.
    [Laughter.]
    The Chairman. We can certainly understand that. That is a 
higher calling than anything we are doing around here.
    [Laughter.]
    The Chairman. Dr. Majumdar, why do you not go ahead, if you 
would like to introduce family members.
    Mr. Majumdar. Sure. Let me introduce my wife of 19 years, 
Dr. Aruna Joshi, and our two daughters Shalini and Anjali. 
Shalini is taking her SAT exams this Saturday, so I wish her 
the best of luck. My 76-year-old mother sends her regrets to 
you that she could not be here today.
    The Chairman. We are sorry she could not be, but we welcome 
those who are here, the families of both nominees.
    At this point, let me just have each of you give any 
opening statement that you would like to give and then we will 
have a few questions.
    Dr. McNutt, why don't you go ahead first?

  STATEMENT OF MARCIA K. MCNUTT, PH.D., TO BE DIRECTOR OF THE 
  UNITED STATES GEOLOGICAL SOCIETY, DEPARTMENT OF THE INTERIOR

    Ms. McNutt. Senator Bingaman, Senator Murkowski, Senator 
Udall, I am honored to come before you as the President's 
nominee for Director of the U.S. Geological Survey. You have my 
prepared statement. Time is short. Therefore, I will depart 
from those remarks and just speak from the heart.
    I would argue that the USGS is the Nation's premier science 
agency because it provides unbiased data and assessments on 
resources critical to the very fabric of our daily lives, such 
as water and energy. The USGS helps keep us safe from natural 
hazards and provides essential scientific information about the 
quality of our environment and how it is changing.
    I know that you take very seriously the task of confirming 
just the right person to direct this organization, and I need 
to convince you that I am that person.
    First, I am a good scientist certified by the National 
Academy. Science organizations need science leadership. Good 
scientists know that it is not just about finding the right 
answers. It is about knowing what questions to ask in the first 
place.
    Second, I am a leader. I was president of the American 
Geophysical Union, the largest international body of geoscience 
professionals in the world, including hydrologists, atmospheric 
scientists, oceanographers, geologists, and geobiologists.
    Third, I am a seasoned administrator, having run a research 
institution for 12 years now. I understand the importance of 
strategic planning, audit, HR policies and procedures, regular 
maintenance from the perspective of someone who has been 
responsible for all of those functions.
    Fourth, I am familiar with the culture of the USGS having 
been a former employee. A common cause of failure of leaders 
who are brought in from the outside to head organizations is 
inability to assimilate the culture of the new organization. I 
will be right at home at the USGS.
    Fifth, I am a strong believer in team building. My current 
institution has thrived on destroying conventional boundaries 
between disciplines and on building uncommon partnerships. The 
USGS and its many partners succeed through team work.
    Finally, in closing, public service is a tradition in my 
family. My father was a freshman at Harvard when the Japanese 
attacked Pearl Harbor. He lied about his age and waived a heart 
murmur to enlist in the infantry. I do not think that my father 
considered the contributions he could make to his country were 
any more important at that time than the contributions I hope I 
can make. I believe that the Nation's need for timely 
information on natural hazards, environmental and climate 
change, and water, energy, biological, and other natural 
hazards has never been greater.
    After my father landed at the beaches of Normandy and 
fought his way to Berlin, he was the youngest 2nd lieutenant in 
the U.S. Army, younger than my daughters today. He earned the 
Silver Star, the Bronze Star, and two Purple Hearts. I could 
only dream that my contributions to my country would approach 
those of my father.
    Thank you for your time, and I look forward to the 
challenge, should you honor me with this confirmation.
    [The prepared statement of Ms. McNutt follows:]
 Prepared Statement of Marcia K. McNutt, Ph.D., to be Director of the 
      United States Geological Society, Department of the Interior
    Chairman Bingaman, Senator Murkowski, distinguished members of the 
Energy and Natural Resources Committee, I am honored to come before you 
as President Obama's nominee for Director of the US Geological Survey. 
I am excited about this opportunity to join Secretary Salazar's team at 
the Department of the Interior, especially now, when the nation's need 
for timely information on natural hazards, environmental and climate 
change, and water, energy, biological, and other natural resources has 
never been greater.
    My inspiration for dedicating my life to the Earth sciences comes 
from having lived in some of the most beautiful landscapes that America 
has to offer: the 10,000 lakes of Minnesota, the Rocky Mountains of 
Colorado, the sandy beaches of La Jolla and Cape Cod, and now John 
Steinbeck's Pastures of Heaven above Monterey Bay. I always knew I 
wanted to be a scientist, but even when I was young I could never 
picture myself in a lab coat with a test tube.
    I majored in Physics at Colorado College, but my favorite college 
course was Introduction to Geology, taught by Professor John Lewis. 
Colorado College uses the block plan in which students only take one 
course at a time for a month. Introduction to Geology is two blocks 
long. So my first two months at college were spent with Doc Lewis and 
about 19 other students scrambling around the Front Range with our back 
packs and sleeping bags trying to piece together the geologic history 
of the Southern Rockies from first principles. We never cracked a book 
the entire time. I was drawn to the grandeur of the Earth sciences and 
awed by the time and space scales upon which Earth processes played 
out. No lab coat. No test tube. Science outside!
    Once I arrived at graduate school at Scripps Institution of 
Oceanography, I switched fields from Physical Oceanography to Marine 
Geophysics because plate tectonics was revolutionizing the geosciences. 
With the vast majority of plate boundaries under the ocean, marine 
geophysicists would be the ones to put the pieces of the theory 
together. Entering the field at that time was like becoming a biologist 
right after Darwin wrote Origin of the Species or becoming a physicist 
right after Einstein wrote the Special Theory of Relativity. Old 
papers, textbooks, and theories were suddenly rendered irrelevant, such 
that there was no large body of prior knowledge to be absorbed. 
Observations had to be reinterpreted within the context of the new 
framework. Major marine expeditions were led, and often staffed 
entirely, by my fellow graduate students and myself, because many of 
the more senior practitioners in the field were too slow to embrace the 
new paradigm. It was a heady time filled with the excitement of 
scientific discovery. Science at sea!
    I credit the US Geological Survey for giving me my first ``real'' 
job after receiving my PhD. I spent three wonderful years in the Office 
of Earthquake Studies in Menlo Park, California, calibrating the 
strength of plates on time scales relevant to the earthquake generation 
process. Working on the earthquake problem, in California, gave me my 
first taste of what it was like to be involved in research of interest 
to the general public, not just my fellow scientists. This was science 
people use! I also benefitted from this time at the GS in that I can 
still appreciate the culture of the organization from the viewpoint of 
someone who has spent time ``down in the trenches,'' and yet the 
intervening years away allow me to bring a fresh perspective to the 
organization.
    The majority of my career has been spent at the Massachusetts 
Institute of Technology, where I served on the faculty in the 
Department of Earth, Atmospheric, and Planetary Sciences for 15 years, 
and was eventually awarded an endowed chair. I enjoyed being surrounded 
every day by some of the brightest young minds in the country, engaging 
them in forefront research problems, and watching them grow 
intellectually each day. My favorite part about MIT was serving as a 
freshman advisor and hearing the personal stories of the students each 
September. Many represented the first generation in their families to 
attend college. Whether they had come from the barrios of San Antonio 
or the plains of North Dakota, the one thing they shared was the fact 
that they had earned their place in the MIT freshman class by their own 
effort. And back home, an entire community was cheering them on.
    My research took me and my students all over the planet: to the 
islands of French Polynesia, the Tibet Plateau, Iceland, Siberia, and 
Antarctica. At MIT I learned how to do what really counts, how to find, 
measure, and nurture excellence, and to become ridiculously efficient 
at multi-tasking. Equally importantly, I developed a complete 
intolerance for sloppy science and anything but the highest ethical 
standards.
    My most recent posting for the last 12 years has been as the 
President and CEO of the Monterey Bay Aquarium Research Institute, 
better known as MBARI. MBARI is an oceanographic research institution 
founded by David Packard and privately funded by the David and Lucile 
Packard Foundation. With its emphasis on peer relationships between 
scientists and engineers and encouragement of high-risk research and 
technology development, MBARI is best described as a ``NASA for the 
oceans,'' albeit at a smaller budget scale. This latest position has 
given me ample experience in leadership, management, and 
administration, as well as considerable opportunity to familiarize 
myself with issues and opportunities in environmental chemistry and 
biology.
    In looking back at my time at MBARI, I believe I have left a mark 
on several aspects of institute operations. First, teamwork. Across 
science, engineering, marine operations, outreach programs, and 
administrative areas, everyone functions as a well-oiled team. To a 
person, everyone understands that the reason we exist is to support the 
research mission and to make it progress smoothly and flawlessly. 
Second, our mission. I helped redirect MBARI from a broadly constituted 
portfolio in basic research to a more targeted set of socially relevant 
topics such as ocean acidification, eutrophication, methane hydrates, 
and harmful algal blooms, nearly a decade before they became common 
buzzwords. Finally, the staff. I am proud of the people I have hired, 
their work ethic, and their commitment to Packard's founding vision of 
how a different kind of institution can truly make a difference.
    You may all be wondering why I would consider leaving such a 
scientific paradise and relocating from my beloved Pastures of Heaven 
at this time. This nation is facing important decisions concerning 
future uses of its precious resources: water, energy, and environment. 
We are increasingly at economic risk from natural hazards. The 
challenges associated with climate change must be better understood. 
Submarine areas under US control out to the 200 mile limit are equal to 
the subaerial land area of this great nation, and yet the seabed 
resources have yet to be explored and inventoried. In deciding how best 
to move forward, our leaders, including members of Congress, the 
President, and the Secretary of the Interior, need sound, unbiased, 
scientific advice. Science is not the only factor in decision making, 
but it needs to be one of the factors. The USGS has long-term records 
and scientific expertise that can be used for making good choices based 
on solid data, and can look into the geologic record to determine 
whether recent conditions are likely to be representative of the 
future. Now, more than ever before, the nation needs the USGS, and I 
would be proud, if confirmed, to lead this effort.
    So, in summary, these are the skills and qualities I would hope to 
bring to the leadership of the US Geological Survey, if confirmed:

    --The capacity to be inspired by the natural world
    --A love for science outside
    --An appreciation for the culture of the US Geological Survey
    --A history of association with some of the finest research 
            institutions in the nation
    --The ability to recognize and nurture excellence
    --High ethical standards
    --An aptitude for leadership
    --Experience in team building
    --A track record for asking the right scientific questions

    Thank you for the opportunity to come before you, and I look 
forward to this challenge, should you confirm me for this position.

    The Chairman. Thank you for your statement.
    Dr. Majumdar, go right ahead.

   STATEMENT OF ARUN MAJUMDAR, PH.D., TO BE DIRECTOR OF THE 
 ADVANCED RESEARCH PROJECTS AGENCY-ENERGY, DEPARTMENT OF ENERGY

    Mr. Majumdar. Thank you. Chairman Bingaman, Ranking Member 
Murkowski, and distinguished members of this committee, it is 
my distinct honor and privilege to appear before you today as 
President Obama's nominee to be the first Director of the 
Advanced Research Projects Agency-Energy, or ARPA-E.
    I wish to thank President Obama for nominating me to join 
his administration and Secretary Chu first for inspiring me and 
many others at Berkeley and now for showing his confidence in 
me.
    Almost a quarter century ago, I came to this country from 
the land of Mahatma Gandhi as a 22-year-old graduate student, 
hoping to receive a doctorate from the best higher education 
and research system in the world. This was a dream that my 
father had for me. He came to this country in 1957 to receive 
an education in telecommunication and radar and returned to 
India 2 years later with many friendships and a deep admiration 
for the people of this country. In his wildest of dreams, 
however, I am not sure he could have predicted that I would 
appear before you today.
    In the course of my journey, I have discovered not only the 
scientific and technological prowess of this great Nation, but 
also a country that opened its arms, welcomed me with warmth, 
and adopted me as one of her own. I am proud to be a 
naturalized citizen of the United States of America. I am 
deeply appreciative of the opportunity and the freedom that the 
country has offered me and will always be honored to serve in 
any capacity the country asks of me.
    After receiving my Ph.D., in mechanical engineering from 
the University of California at Berkeley, I spent my career in 
academia, spanning Arizona State University, University of 
California at Santa Barbara, and finally at Berkeley. I have 
been very fortunate to work with some of the smartest minds in 
science and engineering, including many Ph.D.s, post-doctoral 
fellows, fellow faculty, and industrial scientists and hundreds 
of undergraduate students. I have been an advisor for both 
science and engineering at the Department of Energy, the 
National Science Foundation, for PCAST, and for various startup 
companies and venture capital firms in the Bay Area, which is 
the world's most vibrant ecosystem for technological and 
business innovation.
    The focus of my work has always been to solve industrial or 
societal problems and to dig deep into science when faced with 
difficult technical challenges. I have risked delving into new 
fields of research where I had no background, and I have 
thrived on quickly learning the landscape and opening new paths 
where previously none existed. For these contributions, I was 
elected as one of the youngest members to the National Academy 
of Engineering, which is the Nation's highest honor in 
engineering. I have served as the director of several 
institutes in both academia and professional organizations and 
have recently led the energy efficiency innovation efforts at 
Berkeley Labs. In February of this year, I testified before 
this committee on how to reduce energy consumption in 
buildings. If confirmed, I will bring this breadth and depth of 
knowledge in science, engineering, and management of 
technological innovations to lead ARPA-E from its genesis.
    One of the models for ARPA-E is DARPA, which was created in 
1958 in response to the launch of Sputnik. This committee and 
others were instrumental in authorizing ARPA-E and pointing it 
to address three Sputniks of our generation: energy 
independence and security, reduction of greenhouse gas 
emissions, and American competitiveness in the global energy 
and environment market.
    The goal of ARPA-E is to identify and anticipate 
technological barriers and gaps that impede progress toward 
these objectives and to rapidly innovate to overcome or 
circumvent them. ARPA-E will complement existing R&D programs 
by drawing upon the scientific discoveries and combining them 
with new engineering approaches to create innovative solutions 
for the market. Speed, calculated risks, internal competition, 
and agility will be the keys to the technological innovations 
that mark our success. Our Nation's history is replete with 
examples of pioneers and entrepreneurs who took risks, often 
failed initially, quickly learned from their failures, competed 
against each other, and innovated in both technology and 
business to create the largest industrial base the world has 
ever seen. If confirmed, I will lead ARPA-E to tap into this 
truly American ethos and identify and support the pioneers of 
the future.
    I believe that the Nation that creates an economy based on 
reduced energy consumption, clean energy supply, and a smart 
energy infrastructure will lead the global economy of the 21st 
century. With the best R&D infrastructure in the world and a 
thriving innovation ecosystem in business and entrepreneurship, 
we have all the ingredients for success and we have made a 
great start.
    ARPA-E can play a critical role in accelerating progress 
toward these goals. The program has taken its first steps this 
year, and if confirmed, I pledge to use all my knowledge, 
expertise, and experience to help grow ARPA-E into a robust 
engine of American innovation in energy and environment.
    It is a privilege and an honor to testify before you today, 
and I look forward to answering any questions you may have. 
Thank you very much.
    [The prepared statement of Mr. Majumdar follows:]
   Prepared Statement of Arun Majumdar, Ph.D., to be Director of the 
     Advanced Research Projects Agency-Energy, Department of Energy
    Chairman Bingaman, Ranking Member Murkowski, and distinguished 
members of this committee, it is my distinct honor and privilege to 
appear before you today as President Obama's nominee to be the first 
Director of the Advanced Research Projects Agency--Energy or ARPA-E.
    I wish to thank President Obama for nominating me to join his 
administration, and Secretary Chu, first for inspiring me and many 
others at Berkeley, and now for showing his confidence in me.
    Please allow me to introduce my wife of 19 years, Dr. Aruna Joshi, 
and our two daughters, Shalini and Anjali. My 76-year old mother sends 
her regrets to you that she could not be here today.
    Almost a quarter century ago, I came to this country from the land 
of Mahatma Gandhi as a 22-year old graduate student, hoping to receive 
a doctorate from the best higher education and research system in the 
world. This was a dream that my father had for me. He came to this 
country in 1957 to receive an education in telecommunication and radar, 
and returned to India two years later with many friendships and a deep 
admiration for the people of this country. In the wildest of dreams, 
however, I am not sure he could have predicted that I would appear 
before you today.
    In the course of my journey, I have discovered not only the 
scientific and technological prowess of this great nation, but also a 
country that opened its arms, welcomed me warmly, and adopted me as one 
of her own. I am proud to be a naturalized citizen of the United States 
of America. I am deeply appreciative of the opportunity and the freedom 
that the country has offered me, and will always be honored to serve in 
any capacity the country asks of me.
    After receiving my PhD in Mechanical Engineering at the University 
of California, Berkeley, I spent my career in academia, spanning 
Arizona State University, University of California, Santa Barbara and 
finally at Berkeley. I have been very fortunate to work with some of 
the smartest minds in science and engineering, including many PhDs, 
post-doctoral fellows, other faculty and industrial scientists, and 
hundreds of undergraduate students. I have been advisor for both 
science and engineering at the Department of Energy, the National 
Science Foundation, for PCAST and for various startup companies and 
venture capital firms in the Bay Area, which is the world's most 
vibrant ecosystem for technological and business innovation.
    The focus of my work has always been to solve industrial or 
societal problems, and to dig deep into science when faced with 
difficult technical challenges. I have risked delving into new fields 
of research where I had no background, and have thrived on quickly 
learning the landscape and opening new paths where previously none 
existed. For these contributions, I was elected as one of the youngest 
members to the National Academy of Engineering, which is the nation's 
highest honor in engineering. I have served as the director of several 
institutes both in academia and in professional organizations, and have 
more recently led the energy efficiency innovation efforts at Berkeley 
Labs. In February of this year, I testified before this committee on 
how to reduce energy consumption in buildings. If confirmed, I will 
bring this breadth and depth of knowledge in science, engineering, and 
management of technological innovation to lead ARPA-E from its genesis.
    One of the models for ARPA-E is DARPA, which was created in 1958 in 
response to the launch of Sputnik. This committee and others were 
instrumental in authorizing ARPA-E, and pointing it to address three 
``Sputniks'' of our generation: (i) energy independence and security; 
(ii) reduction of greenhouse gas emissions; (iii) American 
competitiveness in the global energy and environment market.
    The goal of ARPA-E is to identify and anticipate technological 
barriers and gaps that impede progress towards these objectives and to 
rapidly innovate to overcome or circumvent them. ARPA-E will complement 
existing R & D programs by drawing upon the scientific discoveries and 
combining them with new engineering approaches to create innovative 
solutions for the market. Speed, calculated risks, internal 
competition, and agility will be the keys to the technological 
innovations that will mark our success. Our nation's history is replete 
with examples of pioneers and entrepreneurs who took risks, often 
failed initially, quickly learned from those failures, competed against 
each other, and innovated in both technology and business to create the 
largest industrial base the world has ever seen. If confirmed, I will 
lead ARPA-E to tap into this truly American ethos and identify and 
support the pioneers of the future.
    I believe that the nation that creates an economy based on reduced 
energy consumption, clean energy supply, and a smart energy 
infrastructure will lead the global economy of the 21st century. With 
the best R&D infrastructure in the world and a thriving innovation 
ecosystem in business and entrepreneurship, we have all the ingredients 
for success and we have made a great start.
    ARPA-E can play a critical role in accelerating progress towards 
these goals. The program has taken its first steps this year, and if 
confirmed, I pledge to use all my knowledge, expertise, and experience 
to help grow ARPA-E into a robust engine of American innovation in 
energy and environment.
    It is a privilege and an honor to testify before you today, and I 
look forward to answering any questions you may have. Thank you.

    The Chairman. Thank you both very much for your very good 
statements.
    Let me ask a couple of questions and then defer to Senator 
Murkowski for her questions and then others.
    Dr. McNutt, one of the bills that we were able to pass here 
recently is the Secure Water Act. This is legislation that 
requires the USGS to compile data and develop strategies to 
address impacts associated with climate change.
    I do not know if you are in a position at this point, but 
if you are, I would be anxious to hear what plans USGS has to 
implement the Secure Water Act, how those plans fit within the 
structure established by Secretary Salazar's recent order 
addressing the impacts of climate change on America's land, 
water, and natural and cultural resources. Do you have enough 
information to give us some insights on that at this point?
    Ms. McNutt. Thank you for that question, Senator.
    I do know that, of course, the Secretary is extremely 
interested in moving forward in understanding impacts of 
climate and one of the major impacts is, of course, on water 
supplies. The Secure Water Act, in its emphasis on research on 
water, will fit right in with that.
    The fact that the Secure Water Act is based on the 
recommendations of a National Academy report is, of course, 
greatly in its favor because it is good science. It fits right 
in with the mission of the USGS, and as we all know, the USGS, 
in its cooperative program with the States, has worked very 
hard to try to keep its stream gauge network funded to provide 
vital information and data on the water resources in the United 
States. I very much would look forward, if confirmed, to 
working with you and this committee to put the stream gauge 
network on a solid financial footing.
    The Chairman. Thank you for that.
    Let me just make one other comment. In previous years here, 
under the previous administration, we had real problems 
maintaining funding for USGS' work related to water. There were 
proposed cuts in the water resources programs at USGS. Coming 
from an arid State and, of course, with the concerns that 
climate change could make it even more arid, which many of the 
scientists have now concluded, I am anxious that we adequately 
fund the Department's budget to do the work required in these 
important programs. The ones I have in mind are the National 
Stream Flow Information Program, the National Groundwater 
Resources Monitoring Program, and the Cooperative Water 
Program.
    So I hope that you will be able to give those real 
priority. If you will, once confirmed, be fighting for adequate 
funding for them within the administration, I will be doing 
what I can to see that Congress supports that as well.
    Ms. McNutt. I think we are on the same wavelength there, 
Senator.
    The Chairman. Dr. Majumdar, let me just mention to you--I 
think in your statements, you have got a good phrase there, 
``thriving innovation ecosystem,'' as something that we need to 
promote and generate in our economy and our country and that 
the research and development infrastructure is an essential 
part of that.
    A lot of what you are going to be trying to do at ARPA-E, 
at least the way I think about it--and maybe you could comment 
as to where I am wrong on this, if I am. At our national 
laboratories, Department of Energy laboratories, as you have 
experienced there at Berkeley, the labs have a portion of money 
which is generally referred to as LDRD that the lab director 
can direct to those areas that have great potential but which 
do not necessarily have a sponsor in the sense of an agency 
that has come to them saying please do this or please do that. 
It seems to me that your job nationally is to do the same type 
of thing, identify those areas that have that same kind of 
great potential long-term and hopefully we will be able to 
maintain funding so that your new agency will be able to 
nurture those and develop those.
    Am I thinking of it properly by making that analogy to the 
LDRD funding at our national labs?
    Mr. Majumdar. Thank you, Senator. I think the analogy is 
very appropriate. Having been in the national lab in Berkeley, 
I have been part of the LDRD system, and I think those are some 
of the ideas that we think are the catalysts of the future to 
grow something bigger and which often will not be looked at 
that favorably with the funding agencies because it is just too 
early. So in that respect, it is a great analogy.
    I think in the first round of proposals that ARPA-E had 
that I was not involved in, they received a tremendous interest 
from the scientific and engineering community, overwhelming in 
fact, which just goes to show how much sort of pent-up interest 
there is in looking at innovations in the energy and 
environment area.
    The Chairman. Very good.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Dr. McNutt, I appreciate the conversation that you had with 
the chairman about the water resources and the studies there. I 
would just add another one to put on your radar screen.
    Back in 2007, we passed the Alaska Water Resources Act that 
required USGS to do a study of the aquifers that are in the 
urban areas of the State, Anchorage, south central, and down in 
Homer, as we look to potential water shortages within the 
State.
    So the commitment that I believe I heard from you was that 
you would be working to get these. If not the studies, you 
mentioned the stream gauge network, which we recognize have not 
been given the greatest priority from a funding perspective. 
But it sounds like you have got a commitment here to work in 
this area, and I would just appreciate you recognizing the 
Alaska piece up there as well. Oftentimes, I think it is 
believed that because we are surrounded by water and we have so 
many rivers and natural water sources, that we are OK up there. 
But we still would ask for the assistance that we gained in 
2007 with that study.
    I wanted to ask you about the data that has been requested. 
As we look to the situation on our public lands and making 
decisions as to whether we develop our natural resources there, 
it is important that we fully understand what it is that we 
have. Earlier this year, I had sent a letter to Secretary 
Salazar requesting that the Department provide our office with 
maps and data that outlined the minerals, the oil and gas that 
is available, some of our renewable energy resources within 
some of these newly proposed wilderness areas and other land 
set-asides. Much of that data that they will need within 
Interior will be coming from USGS data bases.
    So the question I ask of you at this point in time is 
whether you will commit to providing that data to the committee 
as we have requested, and as that is collected, if within USGS 
you can provide us with a list of the energy and the mineral 
resources that are already set aside within these wilderness 
areas. So a collection of the data, and then providing that to 
us as well, is required.
    Ms. McNutt. Senator, thank you for bringing up this issue. 
During my Hill visits in preparation for this hearing, I heard 
about this issue actually from several Senators already, and 
clearly this is a big issue when it comes to setting aside 
wilderness areas to know ahead of time what exactly is being 
set aside.
    I think for many of these areas, there probably is already 
information that is known, and I simply do not know yet what 
kind of workload it would be. I would like to work with the 
Senators here on this committee and with the staff at the USGS 
to get an estimate of what it would take to actually meet your 
needs for this and come back to you with some kind of estimate 
of what we could deliver for you that would meet your needs and 
not impact other critical areas of the Survey's mission at the 
same time.
    Senator Murkowski. I would appreciate your review of that. 
As I think you probably learned in your visits, it is an issue 
that I think has generated a great deal of interest amongst 
members. It is important that we understand where our resources 
are and as we are talking about public land set-asides, what we 
are doing. The policy decisions are done using the science.
    Dr. Majumdar, let me ask you. Within ARPA-E, you are 
focusing on some pretty exciting things, and a lot of dreaming, 
a lot of visioning. Some would say it is impossible. But you 
are taking on some high-risk, high-pay-off technologies, and we 
have to believe that for every success that you have, you are 
going to have multiple failures. Given that we live in a 
technological age where, again, we expect an instantaneous 
result--we expect if we flip that switch, all of a sudden, we 
are going to be able to go from power that is generated by coal 
to power created by wind just like that--what is the real 
timeline, when we live in this world of instantaneous response? 
What is reasonable in terms of a timeline for us here in 
Congress to gauge the effectiveness of this program within 
ARPA-E?
    Mr. Majumdar. Thank you, Senator. I think that is a very 
good question.
    I feel a timeline depends really on the technology. In some 
cases, you are right. I think there will be--when anyone takes 
high risks and looks for high pay-offs, there will be a few 
things that may not go exactly the way we planned. But I think 
the real gain from that is to learn from the failures and sort 
of get around them in the future.
    I appreciate the question. I think the time depends on what 
we want to do. In some cases, I think the goal of ARPA-E--and 
if confirmed, this is where I would go--is to look at the 
industry and see where are the gaps, where are the 
technological barriers. You know, it is supposed to be a 
projects agency. So if there is a barrier, you can create a 
project and let five teams compete with each other and solve 
the problem, and then move on to other things.
    In that case, it could be--some of them could be shorter, 
but there are some issues which are much more longer-term. How 
do you take sunlight and create a fuel out of that? There are 
some basic science issues that are still being discovered right 
now. You know, if they get discovered, the question is then how 
to accelerate that into a commercial setting. Those can take 
longer.
    So it really depends on the kind of problems that ARPA-E 
solves. So it could be anywhere from 3 to 4 or 5 years or it 
could be even longer.
    Senator Murkowski. The difficulty is in managing those 
expectations.
    Mr. Majumdar. Yes.
    Senator Murkowski. You are looking at it from the 
scientific perspective, and I appreciate that.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Good morning to both of you. I am very excited to think 
about the fact that when you are confirmed, the leadership you 
will bring to both of these important agencies.
    If I might, Dr. McNutt, I would turn to you first. I was 
pleased to note your connection to Colorado. You are a proud 
graduate of Colorado College. The USGS has a long history of 
directors who have deep roots in the landscapes, particularly 
of the West. John Wesley Powell, the first director of the 
USGS, of course is renowned for his adventures in the Grand 
Canyon. I dare to say I think you meet that standard. Clearly, 
there were times in your life where you spent more nights under 
the stars in a year's time than you did under a roof. I think 
we are going to be very well served by your leadership in the 
USGS.
    You also, I think, give us an important standard to keep in 
mind in responding to Senator Bingaman's questions. We focus a 
lot on one liquid, oil, a hydrocarbon, but I think if we focus 
on the building block of life here on our planet, H2O, water, 
and ensure that we have affordable, safe, and clean supplies of 
water, we will have healthy societies, less conflict, and a 
bright future. So I look forward to the work you do there.
    If I could direct a question your way, you talked about the 
need to survey the coasts and that we know very little about 
those areas out to the 200-mile limit. Could you speak for a 
minute or so on your plans there and what you think we could 
do?
    Ms. McNutt. Yes. Thank you for that question, Senator.
    When I first arrived at my current institution, MBARI, we 
had no capabilities basically in-house for under-sea mapping, 
and I built a program there, which is now considered the 
Nation's best for high-resolution, deep-sea mapping, which is 
delivered by autonomous underwater vehicles, which is a high-
resolution, multi-beam sonar with sub-bottom profiling and is 
the, basically, envy of the world.
    Of course, the USGS' program, from what I understand right 
now, is mostly coastal mapping, habitat mapping, and for its 
mission right now, is a very good program, interferometric 
mapping with unmanned surface vehicles.
    But I think there is a lot of work to be done with this 
vast portion of our under-sea territory which basically doubles 
the land area of the U.S. out to the 200-mile limit where we 
have resources that are basically unmapped and unassessed. So 
if confirmed in this position, I would definitely like to move 
the USGS in the direction of helping the U.S. catalog and 
assess and inventory what we have in that area and work with 
other agencies such as NOAA and U.S. Fish and Wildlife Service 
and MMS to help understand what we have in that region.
    Senator Udall. Even those of us who represent land-locked 
States look forward to those findings and that new data set. I 
know the Senator from Alaska is eager to know about those 
resources and to further expand the size of the State of 
Alaska, I am sure.
    [Laughter.]
    Ms. McNutt. As a first step in that, the USGS has done a 
great job actually up in the Arctic already.
    Senator Udall. Thank you for those comments.
    Dr. Majumdar, I want to welcome you as well. My wife and I 
took our honeymoon in India and climbed some mountains there, 
of all things, and I have great fondness for the Indian people 
and have been proud to get to know a number of Indo-Americans 
who have become Americans. I am proud to be an American with 
you. I had a chance to meet the Dalai Lama yesterday, and when 
you meet the Dalai Lama, of course, you think of Mahatma Gandhi 
as well and that line of remarkable leaders who we have been 
fortunate to have as human beings.
    You clearly have a real interest in energy efficiency 
technology. I think there is a lot of violent agreement now on 
the Hill about the potential for energy efficiency. Could you 
just speak for a minute, as I see my time will expire, about 
this world of energy efficiency and what we could be doing and 
perhaps some of the potential that we do not even see today 
when it comes to energy efficiency?
    Mr. Majumdar. Thank you, Senator. Thank you also for the 
kind comments about your honeymoon in India.
    Senator Udall. Yes.
    Mr. Majumdar. I think energy efficiency is often called the 
low-hanging fruit, but as Senator Bingaman had said the last 
time when I testified, it is tough to choose what to pick. I 
think that is appropriate.
    When I look at energy efficiency, there are three areas 
where energy goes, the big chunks. One is buildings, which is 
40 percent of our energy, and three-quarters, 75 percent, of 
our electricity. They are really in many ways inefficient. The 
buildings do not work properly. Let me just give you an 
example.
    For example, in this building or in many large buildings, 
the centralized chillers, which are by themselves very 
efficient, but even if there is 1 percent in the building, the 
big chiller has to start running, and that is very inefficient 
as a system. So here is the problem. How do you take a 
centralized system and make it decentralized so that you can 
have cooling and heating on demand and only at certain 
locations? So that is a technical challenge that I think, you 
know, one could devote some effort in that. So buildings is one 
big area.
    Transportation systems, making more efficient internal 
combustion engines; electrification, looking into batteries and 
high energy density batteries, which is safe and which are low 
cost, and that is on the transportation side.
    Then the industrial. So things like cement, steel, glass 
manufacturing needs a lot of heat and all that heat is wasted, 
if some of the heat could be recovered and used in useful ways.
    There is a lot of potential out there. So I think this is 
really a huge opportunity for the United States.
    Senator Udall. Thank you. You just demonstrated why you are 
going to be a tremendous leader of ARPA-E. Thank you.
    Mr. Majumdar. Thank you.
    The Chairman. Senator Risch.
    Senator Risch. Thank you very much. Dr. McNutt, in looking 
at the work that you have done, I am obviously very impressed 
with the ocean work, and certainly that is going to be 
important as we move forward. I think probably one of the 
biggest blanks in our scientific knowledge in America is ocean 
conditions. I think that transcends to a lot of different 
inquiries, not the least of which is salmon recovery, which is 
really important in the Pacific Northwest. Certainly with 
climate change, obviously, ocean conditions play a big part, 
and we know very little about it. So I am impressed to see 
that, and I am impressed to see that you bring that knowledge 
to the agency.
    Having said that, I have a much less visionary question for 
you and much more practical. Those of us who live out west 
frequently pick up USGS maps, and they are something we have 
used for a long time. They are a tremendous resource for 
Americans, particularly those of us who live in the West. 
Unfortunately, every time I pick one up, if you look at the 
bottom, it says it was based on work that was done in the 
1960s.
    Are there any plans afoot to bring this forward, or do you 
have other higher priorities than this that are on the books?
    Ms. McNutt. OK. That is a very good question, Senator, and 
from what I understand, just based on some very preliminary 
briefings, there are moves afoot to do new registrations of all 
of the USGS data sets to make sure that they are all such that 
the points from all of the data sets, whether it is a 
topographic data set or a LANDSAT data set or an ecological 
data set, that they are all perfectly registered, which will 
improve all of them.
    So whether that involves a reissuing of the maps, I would 
guess that that probably does, but I will have to get back to 
you on the details of exactly what that involves in terms of 
the topo maps themselves. So I do not exactly have the answer 
in terms of what that involves with the topographic maps, but I 
believe it does because of the fact that not all of them 
actually go back to exactly the same datum.
    Senator Risch. That is true--they do not go back to the 
same data. The actual work on the topo maps is good; the 
problem is there have been a lot of changes. Many, many roads 
have been built over the last 40-50 years that are not on 
there, and structures, improvements and what have you. So I 
would encourage you to do something in that regard, although I 
understand your focus is on ocean conditions. Those of us that 
live in the West--we are interior States, as Senator Udall 
indicated, although we do have a seaport in Idaho, believe it 
or not, we are interested in the surface that we have available 
to us.
    Ms. McNutt. Senator, I do not want to give the impression 
that my focus is entirely on the ocean, although I do believe 
that there are many new opportunities there. Basically as 
humans, we live on the land and that is where the rubber is 
going to meet the road with many of the challenges we face. So 
certainly I would, if confirmed, not ignore the land where we 
have to live, where we have to grow our food, where we have to 
build our homes, where we have to build our constructs. So, no, 
I will not ignore the land.
    Senator Risch. Thank you, Doctor.
    Thank you, Mr. Chairman.
    The Chairman. Senator Risch, let me just ask, before going 
to Senator Barrasso, where is your seaport?
    Senator Risch. It is in Lewiston, Idaho.
    The Chairman. Lewiston, Idaho. I did not know that was a 
seaport.
    Senator Risch. It is a seaport. So long as the dams remain 
in the lower Snake River, it will be a seaport.
    The Chairman. All right. Yes, I learned quite a bit this 
morning.
    Go ahead, Senator Barrasso.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    I want to congratulate both of you on these nominations. I 
want to welcome your families, congratulate them as well for 
being here.
    Dr. McNutt, thanks so much for taking the time to come to 
my office and visit earlier today. We talked about a range of 
things, including monitoring of volcanoes in the West. We 
talked about energy needs across the world, talked about global 
climate change, talked about carbon and carbon sequestration.
    I wanted to just visit a little bit about some of the 
energy needs. Wyoming is a State with abundant resources in 
coal, which to me remain the most affordable, reliable, secure 
source of energy. I think it is an irreplaceable part of our 
energy portfolio. Clean coal and carbon capture and 
sequestration technology are critical components of making our 
energy cleaner. Wyoming is a leader in these issues and I 
believe can be a big part of the solution. We also have 
significant capacity, as you and I have discussed, for 
underground carbon sequestration compared to other States.
    Can I ask you what role you see coal playing in America's 
energy future?
    Ms. McNutt. Yes, Senator. I have been briefed on some 
preliminary USGS studies, and from what I understand, the 
country does have significant coal resources, but from what I 
understand, about 0.5 percent is recoverable in existing mines 
and about 10 percent is easily recoverable. Then the curve 
starts going up pretty quickly in terms of the cost of 
recovery. So although there is a lot of it out there, the cost 
starts going up pretty quickly, and as the cost goes up, it is 
because of the technology for getting it out of the ground and 
the environmental costs and other things too. So at that point, 
it starts trading off with other types of energy as well. So we 
have a lot of it is the good news, but the bad news is we start 
paying more for it.
    Senator Barrasso. What role will your agency play in the 
administration's efforts toward carbon capture and 
sequestration?
    Ms. McNutt. The role that the USGS plays in that is that we 
are involved in doing the methodology and ultimately, if 
funded, an assessment of how much storage is available, both 
geological and biological, for CO<INF>2</INF> storage.
    Senator Barrasso. What kind of major challenges do you 
think we face in working on carbon capture and sequestration?
    Senator Barrasso. I think that basically the back-of-the-
envelope calculations that I have seen from both my involvement 
with Stanford University and my service on Schlumberger's 
Technology Committee is that the U.S. as a Nation has decades' 
worth of storage in abandoned oil fields and centuries of 
storage in salt mines.
    Senator Barrasso. As you know, throughout the West, there 
are split estates where the land is owned by one group for 
ranching purposes and others and then the minerals under the 
land by another. Sometimes that is the Federal Government. You 
may not have given thought to this, but the pore space under 
the land--it is not mineral. It is not the top for grazing or 
for growing. It is the pore space, and we have been dealing 
with that in Wyoming. I do not know if you have ever given any 
thought to the Federal Government, if they would own that pore 
space or who would own that pore space, or how you would 
envision that with some of these split estates where the 
surface is owned by one and the under-surface, the minerals, by 
the Federal Government because we have a lot of Federal 
Government involvement.
    Ms. McNutt. Senator, these sound like very difficult legal 
and policy discussions that would be well above my pay grade.
    Senator Barrasso. They may be your pay grade. You will, I 
am sure, hear more about those.
    So thank you, Mr. Chairman.
    The Chairman. Most of what we consider around here is above 
our respective pay grades, but that does not hold us back.
    [Laughter.]
    The Chairman. Senator Murkowski, did you have any other 
questions?
    Senator Murkowski. I do not have any follow-ups.
    The Chairman. All right. Thank you both very much. We hope 
to be able to move your nominations to the full Senate quickly, 
and we appreciate your being here.
    That will conclude our hearing.
    [Whereupon, at 11:15 a.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

        Responses of Marcia K. McNutt, Ph.D., to Questions From 
                           Senator Murkowski
    Question 1. An increasing number of technological improvements have 
shrunk the drilling footprint for oil and gas, including deeper and 
longer reaches for accessing oil and gas reserves. In your considerable 
experience with the earth sciences, have you encountered any scenario 
where directional oil and gas drilling has caused surface impacts 
outside of its drillpad footprint? I mean to ask in terms of surface 
subsidence, seismicity, geological changes, anything that a layperson 
might consider a risk.
    Answer. I am not an expert on directional drilling and its 
environmental impact, but do have some passing exposure to the 
technology from my service on Schlumberger's Technology Committee. I 
have personally used directional drilling at my own institution to 
install the casing for a cabled observatory across a very dynamic 
shoreline to the deep sea. Directional drilling offsets the footprint 
of the surface expression of the drilling from the subsurface tapping 
of the oil and gas deposits. My understanding is that the issues you 
raise, such as ground subsidence, induced seismicity, and other 
geological changes are less dependent on the drilling technology than 
on other factors.
    Question 2. I recently had the opportunity to visit a 4-D seismic 
facility in the Gulf region. It was a truly fascinating technology to 
witness in action--originally there was two-dimensional seismic and now 
3-D seismic is commonly used to zero in on mineral resources thousands 
of feet below the ground or the ocean floor. My question is whether 
you've had a chance to view and really get a sense of this modern 
surveying technology, and if you feel it will play an important role in 
energy exploration during your tenure?
    Answer. A few years ago I had the opportunity to see the fabulous 
imaging facilities at the University of Texas, Austin. I was similarly 
impressed by its capability to visualize large 3-D seismic data sets. 
At the time, they were using the facility for both aquifer and oil 
reservoir modeling. Such 3-D imaging is definitely here now for energy 
exploration, and I believe that during my tenure, if confirmed, we will 
need to move to 4-D on account of the highly unstable state of 
resources such as methane hydrates. This is yet another area where the 
USGS will rely on partnerships on account of the high overhead in 
building and maintaining such state-of the-art data acquisition, 
processing, and imaging facilities. Based on my experience, there is 
excess external capacity that the USGS can leverage.
    Question 3. I have a bill (S. 782) pending to better fund USGS 
efforts to monitor the nation's volcanoes. It would support upgraded 
observation efforts, not just in Yellowstone and along the West Coast, 
but in Alaska as well. What is your opinion of the bill and the 
importance of better science concerning our nation's geophysical 
hazards?
    Answer. I agree that it is important to have the best and most up-
to-date science regarding natural hazards that is available to us. 
Worldwide, events associated with geophysical hazards cause many deaths 
and result in billions of dollars of damage in destruction to homes and 
infrastructure and aid. Information provided by the USGS is important 
to help in both the preparation for these events and in our 
understanding of how and why these events happen. I am not familiar 
with the details of S. 782, but if confirmed I will become more 
familiar with this legislation.
    Question 4. Secretary Salazar recently signed an order that 
outlines the Department of the Interior's basic strategy for responding 
to the ``current and future impacts of climate change on America's 
land, water, ocean, fish, wildlife, and cultural resources.'' As a non-
regulatory agency responsible for producing objective scientific 
information, what role do you believe the USGS can and should play in 
this effort?
    Answer. As the science agency for the Department of the Interior 
and because of its interdisciplinary climate change science expertise, 
the USGS is well positioned to provide objective, unbiased, timely and 
responsive science information to a diverse group of decision makers. 
The principal focus of this information is to provide a better 
understanding to policy makers of the impacts and effects of climate 
change on a wide array of America's natural and cultural resources, 
including water availability for both human and ecological needs, the 
ability to find, extract and transport energy resources, the 
proliferation of invasive species and wildland fire, and the risks of 
sea-level rise and coastal erosion on America's critical 
infrastructure, to name just a few. I believe that the appropriate role 
for the USGS is to provide the science needed to enable more effective 
and cost efficient decision and policy making.
    Question 5. Earlier this year, Secretary Salazar testified before 
our Committee about the renewable energy potential of the United 
States. The maps he brought with him were meant to show resource 
locations throughout the country, but left off my home state of Alaska 
as well as Hawaii. Obviously, I wasn't happy about that, and it's not 
an isolated incident. Quite a few of the maps produced by executive 
agencies depict only the Lower 48, and make no mention of our offshore 
states. If confirmed as Director of the USGS, will you commit to 
including all 50 states--including Alaska and Hawaii--on any map that 
depicts the Lower 48?
    Answer. I will, and I can think of no reason why Alaska and Hawaii 
should not be included with the rest of the states in a map depicting 
the entire United States. I might add personally that I have had many 
occasions in the course of my own research to visit many locations in 
both Alaska and Hawaii, and hope to make more visits to USGS facilities 
there if confirmed.
    Question 6. Please describe the role of the USGS in addressing 
water availability problems throughout the United States.
    Answer. As I understand it, the USGS develops and delivers 
technical information and analytical tools to resource professionals 
and the general public, allowing them to evaluate the questions they 
face about the quantity, quality, and use of water resources across the 
Nation. This includes hydrological, geological, and biological 
information, as well as the ancillary data that allow sound analysis of 
that information. I am also aware that much of this information is 
provided through the USGS's Cooperative Water Program, a partnership 
with states, tribes, and local governments, to provide important 
information.
    Question 7. If confirmed, how would you increase our understanding 
of underground water resources?
    Answer. Historically, the USGS has been a leader in the assessment 
and development of techniques for studying the Nation's groundwater 
resources. If confirmed, I will work to build on these strengths to 
assure that the USGS continues to provide both relevant, up-to-date 
basic information and cutting edge technology to evaluate the Nation's 
groundwater resources.
    Question 8. Please describe what will be the most important ground 
water related challenges facing the nation over the next decade and the 
role that the USGS should play in addressing these challenges.
    Answer. Groundwater is one of the Nation's most important natural 
resources, and it faces many pressures from human development. My own 
home is in the Salinas Valley, the ``salad bowl of the Nation,'' which 
exports $3.4 billion annually in agricultural produce thanks to the 
Salinas aquifer. The challenges include the quality of the resource, 
its sustainability, and its connection to surface water. Climate change 
could both increase these pressures and make groundwater even more 
valuable to society during periods of drought and water stress. Many 
aquifers cross State boundaries. I believe that the USGS is the primary 
federal agency responsible for providing an objective assessment of the 
quality and quantity of groundwater in the Nation's aquifers, and the 
agency has a unique capability to provide nationally consistent 
information. The USGS also plays a major role in developing models and 
techniques for evaluating groundwater.
    Question 9. If confirmed, how will you manage the stream gauge 
program? What options will you pursue to ensure that adequate funding 
is provided to the program?
    Answer. If confirmed, I will continue to manage the streamgage 
program in accordance with the plan described in the National 
Streamflow Information Program documents. I am very aware of the 
importance of the USGS streamgage program and will work with the 
Administration to ensure it receives continued support.
    Question 10. Please describe your perspective on the appropriate 
role the federal government, the state government and the private 
sector should play in collecting and analyzing water monitoring data.
    Answer. There is a certain portion of water monitoring that can and 
should be left to the private sector because there is a regulatory 
framework that oversees it, a large enough market to drive competition, 
a simple connection between what is measured and who it is measured 
for, and/or a user base willing (or required) to pay for the 
information. The role for government is indicated when the private 
sector is unlikely to step in because the monitoring is regarded as a 
public good and it is, for that reason, not possible to apportion costs 
to the users. In fact, depending on whether the year is a flood year or 
a drought year, the degree to which various federal, state, local, and 
private groups have a need for the information could change. Federal/
state partnerships are an excellent mechanism for sharing the 
responsibility for monitoring because many surface and subsurface water 
systems cross state boundaries; even within states, jurisdictions are 
shared.
    Question 11. As you are well aware, the Arctic has recently become 
an area of great focus, and scientific input is essential to guiding 
the development of policies in and for this region. The Federal 
approach to Arctic scientific research is encapsulated in the Arctic 
Research and Policy Act of 1984. This Act created the US Arctic 
Research Commission (USARC), a small independent agency that provides 
goals for Arctic research, and created the Interagency Arctic Research 
and Policy Committee (IARPC), which implements these goals. These 
agencies and yours have specific responsibilities outlined in the Act, 
yet recently these entities have not worked together effectively to 
create an integrated scientific research plan and an associated budget. 
Will you provide leadership from DOI and USGS to ensuring that the Act 
is implemented as defined in law?
    Answer. While I am not familiar with the Arctic Research and Policy 
Act, I know that Arctic policy is important to Secretary Salazar and 
agree that scientific research is important to effective management of 
Arctic resources and ecosystems. If confirmed, I will ensure that the 
USGS is providing leadership, within the context of its role under the 
law, to implement that Act.
    Question 12. Will you commit to supporting re-investment in Arctic 
research infrastructure, critical to the conduct of scientific 
research?
    Answer. I agree that scientific research is critically important to 
effective management of Arctic resources and ecosystems. I will commit 
to soliciting, evaluating and considering research needs for the Arctic 
within the U.S. Geological Survey's budget process.
    Question 13. We commemorated the 20th anniversary of the giant 
Exxon Valdez oil spill in Alaska last March. After the spill, Congress 
passed the Oil Pollution Act of 1990. That law promised Americans a 
robust oil spill prevention and response research program. The 
interagency coordinating committee on oil pollution research, created 
by that law that includes your agency, besides MMS, is an ``orphan'' 
committee. To the best of my knowledge this committee has not met 
recently and has never met regularly. Yet we have expanded the nation's 
offshore drilling program in Alaska and citizens of Alaska's North 
Slope have sued to slow down exploration because Alaskans still have 
questions about oil cleanup in ice conditions. A new 8-nation Arctic 
Marine Shipping Assessment, delivered to the Arctic Council in April, 
further stresses the need for this research. As such, will you commit 
to ensure that the nation has a well-planned and support well-funded 
oil spill research program, and further that this program, in cold 
regions, is well coordinated with the US Arctic Research Commission and 
the Interagency Arctic Research and Policy Committee?
    Answer. I understand that the USGS has done significant research on 
the biological impacts of the Exxon Valdez oil spill, but I am not 
familiar with the interagency coordinating committee you mention. If 
confirmed, I look forward to learning more about the work of this 
committee and will ensure that the USGS work in this arena is 
coordinated with MMS and is available to the committee. Through my 
position as chair of the National Research Council's Ocean Studies 
Board, I know that the Board has been asked to undertake a study of oil 
spill cleanup in ice-covered regions and is in the process of raising 
the necessary agency support to begin the study. I hope that the 
results of this study will also help with concrete recommendations for 
any research needs for oil spill research for ice covered areas.
    Responses of Marcia K. McNutt, Ph.D., to Questions From Senator 
                                Barrasso
    Question 14. Secretary Salazar recently signed a Secretarial Order 
incorporating climate change into all land management decisions at the 
Department of Interior. I am concerned that the Order puts into 
question past and future management agreements.
    It could have serious implications for all public land uses:

  <bullet> Recreational use;
  <bullet> Oil and gas development;
  <bullet> Renewable energy development;
  <bullet> Grazing;
  <bullet> And Hunting and Fishing;

    These regulations will hit the Western United States the hardest. 
This Administration cannot continue to promulgate sweeping regulations 
on climate change, before Congress acts on an energy strategy. These 
decisions have major impacts on the American people, American jobs, and 
our economy. As the lone science agency within the Department of 
Interior, you will be at the center of this initiative.

  <bullet> What is your agency's role in this initiative?
  <bullet> What will your focus be in implementing this order?
  <bullet> What mechanisms will you use to provide transparency in your 
        agency's research and recommendations?

    Answer. As I understand it, the USGS role in implementing the 
Secretarial Order is to provide the science, monitoring, modeling, and 
decision support to enable and empower more effective decisions and 
policies by those who make them. Thus, its focus is on providing the 
very best climate change science information in a timely and responsive 
manner so that those responsible for making resource management 
decisions and for developing and shaping the Nation's policies 
regarding resources impacted by climate change can do so with 
confidence. If confirmed, I am committed to the continuation of the 
USGS peer-review process, which ensures that all science-based 
information and related conclusions are unbiased and objective, and 
that the processes involved are well-understood and transparent.
    Question 15. There is a Yellowstone Volcano Observatory in Wyoming, 
jointly operated by the USGS, Yellowstone National Park, and the 
University of Utah. The volcanic monitoring work done at Yellowstone 
provides important data for ensuring public safety. I have received 
comments from people in the State that the data on volcanic activity 
produced by the Yellowstone Volcanic Observatory is not easily 
accessible for non-Observatory officials.

  <bullet> What can USGS do to share appropriate information with local 
        officials, emergency personnel, and the public in order to plan 
        and prepare for volcanic activity?
  <bullet> I would like to have your commitment to work with me and 
        those officials to identify solutions to these problems.

    Answer. While I am not familiar with this specific issue, I agree 
that it is important to have up-to-date scientific and monitoring data 
available to the public. If confirmed, I will look into the situation 
at the Yellowstone Volcano Observatory and look forward to addressing 
your constituents' concerns.
    Responses of Marcia K. McNutt, Ph.D., to Questions From Senator 
                                Stabenow
    Question 16. The United States Geological Survey plays an important 
role in Great Lakes management and research. These waters make up 20 
percent of the world's fresh water supply, and thirty-three million 
people rely on the Great Lakes for their drinking water, including 10 
million just from Lake Michigan alone. The Great Lakes' coastlines are 
also home to wetlands, dunes and endangered species and plants. Lake 
Michigan alone contains over 417 coastal wetlands, the most of any 
Great Lake. However, the Great Lakes are not just an important natural 
resource, but they are also a critical part of Michigan's economy and 
quality of life. Millions of people use the Great Lakes each year to 
enjoy our beaches, fishing and boating.
    Given the importance of the Great Lakes and the role USGS plays in 
their management and protection, could you please describe USGS's role 
in working with other agencies to ensure that the $400 million Congress 
is appropriating for the Great Lakes Restoration Initiative is 
effectively used?
    Answer. I appreciate the value and importance of collaboration for 
achieving the goals of the Great Lakes Restoration Initiative (GLRI) in 
a fiscally responsible and effective manner. I am informed that the 
USGS is in close communication with other agencies involved in this 
initiative and is coordinating its efforts to avoid overlap and 
maximize use of funds. If confirmed, I look forward to working to 
ensure effective use of the Great Lakes Restoration funds appropriated 
by Congress.
    Question 17. Dr. McNutt, the USGS is currently in the lead in 
inventorying the various geologic opportunities across the Nation for 
sequestration of carbon from our coal-fired and other carbon-intensive 
power plants. Can you please explain to the Committee your views on the 
future of carbon sequestration as a means to reduce greenhouse gas 
emissions and your vision of where the USGS would fit into this future 
as the premier earth science agency of the Federal government? Would 
you agree to keep this Committee informed as to the status of the 
inventory of carbon capture and sequestration sites, including the 
viability of the Mt. Simon formation in Michigan?
    Answer. The true global storage capacity of geologic formations is 
unknown at this point. Geologic storage capacity varies on a regional 
and national scale, as well as by reservoir type. A more refined 
understanding of geologic storage capacity is needed to determine how 
much of the overall storage capacity could actually be utilized to 
reduce greenhouse gas emissions. I understand that the USGS has worked 
up a methodology for assessing the capacity for geologic sequestration 
of carbon that is currently out for peer review. If confirmed, I look 
forward to keeping the Committee informed of our progress in gaining 
understanding at various sites.
                                 ______
                                 
     Responses of Arun Majumdar to Questions From Senator Murkowski
    Question 1. When it comes to advanced research project agencies run 
by the government, I think most of us are familiar with DARPA (Defense) 
and HSARPA (Homeland Security). It seems to me that a major difference 
with ARPA-E, if not the difference, is who the customer is. For both 
DARPA and HSARPA, the customer is the Government. For ARPA-E, the 
customer is the individual consumer. What differences do you envision 
ARPA-E having from the other advanced research project agencies to meet 
the consumer needs?
    Answer. I agree that the end user issue is a key distinction. In 
the case of ARPA-E there are a number of potential customers. For 
example, in some cases ARPA-E will look at common technical barriers 
faced by an industry and create a focused effort to overcome or 
circumvent these barriers. In such cases, the customer will be the 
industry or business. In the case of efficiency work, APRA-E customers 
could be utilities that are implementing efficiency programs. Federal, 
state and local governments could also be consumers, given their large 
building stocks and transportation fleets.
    Another difference between ARPA-E and DARPA/HSARPA is that, while 
ARPA-E will be focused on creating new technology, it will also be 
strongly influenced by the demands of policy and markets. Hence, cost 
and economic issues as well as scalability will be key factors 
affecting ARPA-E decisions, whereas DARPA/HSARPA are generally shielded 
from such considerations. It is very important for ARPA-E to engage 
with both business communities and policy makers to ensure that there 
is alignment between technology, policy, and markets so that ARPA-E 
technologies can be adopted quickly.
    Question 2. Please explain your view of the relationship and role 
of the existing applied science programs within DOE, the energy 
frontier research centers, the new energy innovation hubs, and ARPA-E 
when it comes to developing new energy technologies.
    Answer. ARPA-E will be a projects agency, with its projects 
designed to identify, anticipate, and overcome technical barriers that 
require innovation. ARPA-E will partner with the Office of Science to 
expand or adapt its basic research to overcome or circumvent these 
barriers, and it will work with the applied programs (EERE, FE, OE, NE) 
to deploy these innovations to the market at scale. One key difference 
between ARPA-E and other DOE offices is that program managers in ARPA-E 
will be temporary; therefore, partnerships with the DOE institutional 
programs will be essential to provide institutional memory in these 
technical fields. Speed, risk-taking, nimble, agile, internal 
competition, focus on technological innovation, addressing market 
needs, and time-bound describe the way ARPA-E will operate.
    ARPA-E and EFRCs: EFRCs are focused on basic science--understanding 
matter at the level of electrons, understanding complex emergent 
behavior, highly non-equilibrium behavior, etc. Their goal is to 
understand nature. The relationship between ARPA-E and EFRCs will be 
two fold:

          1. ARPA-E will use the scientific toolbox provided by the 
        EFRCs and other science programs to attack a problem or a 
        technical barrier of industrial relevance.
          2. ARPA-E will identify technical barriers of industrial 
        relevance, and if it finds that the science is not understood 
        well, inform relevant EFRCs and other science programs to focus 
        on better understanding the science.

    ARPA-E and Hubs: The Energy Innovation Hubs have the following 
characteristics: (a) they will look at long-term transformation of a 
whole field; (b) they will span basic science to market penetration; 
(c) the teams will be placed under one roof (or perhaps two). In 
contrast, ARPA-E's focus will be short term (3 years) projects-based 
programs that will address a technical barrier of industrial relevance. 
Once that barrier is overcome or circumvented, that program will be 
closed and new programs, perhaps in other topics, will be created. 
ARPA-E and the Hubs will, hence, be distinct but they will be able to 
leverage each other.
    Question 3. Given the constraints on the DOE budget and the desire 
to increase funding for the science and applied R&D programs, what 
priority should be placed on funding ARPA-E?
    Answer. As the nominee for director of ARPA-E, I believe funding 
ARPA-E should be a very high priority. Particularly in these early 
years, it is important to show growth in the budget in order to build a 
constituency within the technical community and recruit the best 
program managers. As the members of this committee know, Congress 
included ARPA-E in the America COMPETES Act in large part due to the 
need for innovative approaches to energy. We have a three pronged 
energy challenge in terms of: (a) energy independence and national 
security; (b) reduced green house gas emissions; (c) American 
competitiveness in the global market. If confirmed, I look forward to 
working with DOE leadership and with Congress to ensure that ARPA-E has 
the funding necessary to make real progress on all three fronts.
    Question 4. Funding for current ARPA-E programs came from the 
stimulus bill. Do you expect a funding request for ARPA-E in the Fiscal 
Year 2011 DOE budget? If so, for how much?
    Answer. I have not been involved in the formulation of DOE's FY 
2011 budget; but if confirmed, I will work with DOE leadership and with 
Congress to assure adequate funding for ARPA-E.
    Question 5. I understand around 3,500 concept papers were received 
in response to the initial funding opportunity released in April. Do 
you expect a similar number of concept papers for future funding 
opportunities? When do you expect the final decision to be made on 
which concept applications from the initial opportunity will receive 
funding?
    Answer. While I was not involved with the initial ARPA-E 
solicitation, I believe that the high volume of concept papers 
submitted indicates a very strong demand for this type of funding 
opportunity, suggesting that future solicitations will also yield a 
high volume of applications. My understanding is that DOE intends to 
announce award selections from this first FOA by the end of this year. 
I also understanding that, while this first FOA was extremely broad, 
the next may seek to identify topic areas of greatest interest to ARPA-
E. At the same time, however, I believe we should make some provision 
for unsolicited proposals in topics not covered by focused programs. 
Such an option can help assure that ARPA-E does not miss any truly 
innovative and game-changing ideas. ARPA-E needs to create a reputation 
of openness--a ``go-to'' place for truly extraordinary ideas.
    Question 6. The ARPA-E funding opportunity announcement issued in 
July, 2009, severely limited the participation of the Federally Funded 
Research and Development Centers (FFRDCs) and prohibited the FFRDCs 
from leading projects. Do you see this restriction being lifted for 
future funding opportunities?
    Answer. Good ideas and innovations can come from anywhere--
academia, national labs, industry, non-profits, individual inventors, 
etc. ARPA-E should be able to support the best ideas, regardless of 
where they come, including FFRDCs. If confirmed, I plan to look into 
this issue and draw on the lessons learned from the first solicitation 
to see if any adjustments are necessary.
    Question 7. The funding opportunity announcement also limited the 
period of performance for projects to 36 months. Technology innovation 
is neither a linear nor predictable process. As director of ARPA-E how 
would you measure the success of projects funded under this funding 
opportunity if the stated objectives of the projects are not met as a 
result of this somewhat arbitrary time constraint? Do you think that an 
arbitrary time constraint is consistent with the mission of ARPA-E?
    Answer. I agree that technology innovation is not necessarily 
linear or predictable, but we have an obligation to strike a balance by 
preventing an open-ended process that taps into a funding stream in 
perpetuity. That being said, some projects, even if they are not 
``completed,'' may merit support beyond the time constraint, based on 
progress or promise. If confirmed, I look forward to working with the 
committee to balance these priorities.
    Question 8. How quickly do you anticipate having enough Program 
Managers on board to move forward with additional funding 
opportunities? From which sectors (industry, laboratories, 
universities, etc.) do you hope to find and attract program managers?
    Answer. As a new agency, ARPA-E must be staffed quickly with a team 
of the ablest, most experienced men and women in energy science, 
technology, and business. If confirmed, I will work to put together 
such a team. Program managers will receive both autonomy and scrutiny 
as they work to create projects that identify and reduce barriers 
through technological innovation and address the three goals of ARPA-
E--energy independence and security; reducd green house gas emission; 
and American competitiveness. Since program mangers will be temporary, 
i.e. 3-4 years, there will be a constant churn of fresh minds and ideas 
in ARPA-E.
    I anticipate that at current funding levels, ARPA-E should have a 
team of about 10-12 technical program managers. Currently, it has 
three. My goal will be to recruit program managers who have the 
following characteristics:

          1. Active/practicing scientists and engineers from the best 
        R&D labs in academia, national labs, and industry
          2. Limited appointment of 3-5 years
          3. Solid science/engineering foundations, deep knowledge of 
        their field, and demonstrated creative R&D
          4. Demonstrated ability to ``sniff out'' important problems, 
        of interdisciplinary work, of ``team science'', and innovations 
        in fields other than their own
          5. Entrepreneurial
          6. Ability to span and bridge basic science and engineering 
        systems
          7. Willingness to learn and ability to learn quickly

    Question 9. Once you have program managers on board, do you 
anticipate that the program managers would be given the freedom and 
flexibility to construct research and development teams from among the 
various participants in our Nation's scientific and technological 
enterprise without limitations on the level of participation by any 
member of the group?
    Answer. I believe that freedom and flexibility are vital to the 
success of ARPA-E. As I noted above, speed, agility, and risk-taking 
are integral to the core mission of ARPA-E. If confirmed, I plan to 
work with program managers to foster an innovative spirit that taps 
into as many scientific and technological brains as possible. I will 
give these program managers, who are the best in their field, 
sufficient autonomy to design their own programs within the strategic 
plans of ARPA-E. Having said that, these managers will also be 
scrutinized as to the design of the programs and how they manage them. 
Program managers will be required to take ``deep dives'' into their 
program topic and be in close touch with PIs within their programs 
(multiple site visits per year, getting to know how teams are 
performing and what are the barriers in the various labs, etc.) and 
evaluate how they are performing. Program managers will be encouraged 
to make decisions on when to terminate projects that are not productive 
and reallocate resources to those projects that show promise.
    Question 10. Do you anticipate cost sharing to be a regular 
requirement for ARPA-E proposals?
    Answer. Coming from the University of California system, I am aware 
of the tight budget situation that makes cost sharing a major concern. 
I am sympathetic to the burden of cost sharing for universities, 
national labs, and entrepreneurial businesses. If confirmed, I plan to 
look into this issue and draw on the lessons learned from the first 
solicitation to see if any adjustments are necessary.
     Responses of Arun Majumdar to Questions From Senator Stabenow
    Question 1. The American Recovery and Reinvestment Act made 
significant investments in advanced manufacturing so that we can ensure 
that the technologies of the future are made right here in the United 
States. My home state of Michigan is a perfect example of how we can 
utilize our manufacturing and engineering expertise, highly developed 
manufacturing infrastructure, and world class universities to provide a 
home for advanced manufacturing technologies and processes. I 
understand that ARPA-E is designed to invest in the development of 
cutting edge technologies, but how do you see the program playing a 
larger role in manufacturing these technologies? For example, can ARPA-
E play a role in developing the advanced manufacturing processes that 
will be needed to take many of these projects to the next level?
    Answer. Yes. In my view, one of the strengths of ARPA-E is its 
flexibility to look across the energy space to address all sorts of 
barriers. We know that there are currently challenges regarding mass 
manufacture of wind turbines, solar panels, batteries, and other 
technologies. For example, batteries are a significant challenge in 
broad-scale deployment of hybrid and electric vehicles. Most of the 
materials in today's lithion ion batteries were discovered in the US, 
but the manufacturing is now in Asia. If confirmed, I will look to see 
how ARPA-E can take the lead in advanced battery technology while also 
creating a manufacturing base in the US. There is great benefit in co-
locating manufacturing and advanced technology development since there 
needs to be feedback between them. Lessons learnt from how the 
semiconductor industry competed in the 1980s and 1990s could be very 
valuable for American competitiveness in the global energy market.
    Question 2. Following passage of the American Recovery and 
Reinvestment Act, the ARPA-E program has been widely successful in 
promoting innovation all across the United States. By investing in 
technologies that can truly transform our energy sector, the program 
has received thousands of applications from businesses seeking to 
demonstrate new clean energy technologies. Many businesses and 
universities in my home state of Michigan have sought to capitalize on 
this opportunity and demonstrate that Michigan is home to a large 
portion of clean energy technology development.
    As the agency moves forward on plans for future competitions, I 
would like emphasize the importance of taking steps to ensure that many 
of these cutting-edge solutions come from the broadest number of 
innovators. Given the volume of applications that were submitted, how 
will you as director of the program ensure that each application is 
given a fair and comprehensive review?
    Answer. I am committed to giving each application due consideration 
in the process. While I was not part of the initial ARPA-E 
solicitation, my understanding is that DOE made resources and reviewers 
available to adequately vet the concept papers submitted.
    If confirmed, I will oversee a review process that is open, fair, 
and transparent. Having been on the receiving end of both good and bad 
news in the past, I can not emphasize enough how important it is to 
engage with proposers in a productive and open manner.
    It is my understanding that the purpose of the first FOA was to 
address a broad, pent-up demand for this kind of funding and to 
identify topic areas of greatest interest to ARPA-E. If confirmed, I 
plan to create focused programs to solve particular technical barriers. 
At the same time, I also recognize the value of an option for 
considering unsolicited proposals in topics not covered by the focused 
programs. Such an option can help assure that ARPA-E does not miss any 
truly innovative, game-changing ideas. ARPA-E needs to create a 
reputation of openness--a ``go-to'' place for truly extraordinary 
ideas.

                                    

      

</pre></body></html>
